   D-2007-051                January 25, 2007




Department of Defense Inspector General's Report
     on the 2005 Defense Base Closure and
       Realignment Commission's Report
  Recommendation #193 Regarding Cecil Field,
                    Florida
                                      INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRlVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                                     JAN 2 5 2007
The Honorable George W. Bush
President of the United States
1600 Pennsylvania Avenue, NW
Washington, DC 20500

Dear Mr. President:

       The Base Closure and Realignment Commission (the Commission) issued a
report of findings and recommendations to you on September 8,2005, which you
approved on September 15,2005. Congress allowed the report to pass into law on
November 9,2005. The Commission's actions were taken under the authority of
Public Law 10 1-5 10, "Defense Base Closure and Realignment Act of 1 990," as
amended.

        This letter is provided in response to the Commission's Report
Recommendation # 193 related to the former Naval Air Station WAS) Cecil Field,
Florida, which contained three criteria. The State of Florida did not take action to
satisfy the three criteria. I received a letter from the Governor of Florida, dated
January 22,2007 (Enclosure 1). The lenm stated:
       On November 8, 2006, the citizens of the City of JacksonviIle voted against
       returning Cecil Field to the military in a county-wide referendum. Because of this
       decision, the State of Florida was not able to pursue the Navy's return to Cecil
       Field by taking the designated actions in Recommendation # 193.

Because the State of Florida did not take the actions required in Recommendation
#193, I am not able to certify cornpIiance with the Commission's criteria.

       Recommendation # 193 required the Department of Defense Inspector
General to certify in writing to the President and oversight committees of
Congress by June 1,2007, as to whether the State of Florida had taken specified
actions by December 3 1, 2006, related to reactivating Cecil Field as a Navy East
Coast Master Jet Base. The Commission's Report Recommendation #293, states
       Realign Naval Air Station Oceana, Virginia by relocating the East Coast Master
       Jet Base to Cecil Field, FL, if the Commonwealth o f Virginia and the municipal
       governments of Virginia Beach, VA, and Chesapeake, Virginia, fail to enact and
       enforce legislation to prevent further encroachment of Naval Air Station Oceana
       by the end of March 2006, ... and if the State of Flodda:
           [I I'appropriates sufficient funds to relocate commercial tenants presently located
                at Cecil Field, Florida,
           [2] appropriates sufficient hnds to secure public-private ventures for all the
                personnel housing required by the Navy at Cecil Field to accoqlish this
                relocation and
           [3] turns over fee simple title to the property comprising the former Naval Air
                Station Cecil Field, incluhng all infrastructure irrrprovements that presently
                exist, . . . The State of Florida m a y not encumber the title by any restrictions
                other than a reversianary clause in favor of the State of Florida and short-term
                tenancies consistent with the relocation of the Master Jet Base to Cecil Field.

      The full text of the Commission's NAS Oceana and Cecil Field Findings
and Recommendation #I 93 is included at Enclosure 2.

      My responsibility was to certify whether Florida's actions complied with
Recommendation #193, and not to deternine whether the East Coast Master Jet
Base should or shouId not be transferred to the State of Florida. This letter
concludes my responsibilities required by Recommendation #193.

       We are also providing our results to the appropriate oversight committees
of Congress. Should you have any questions regarding this matter, please contact
me at (703) 604-8300, or Mr. John R. Crane, Assistant Inspector General for
Cornmunicatiens and Congressional Liaison, at (703) 604-8324,

                                                          Sincerely,

                                                         L
                                                         -
                                                         %
                                                         *
                                                          Thomas F. GimbIe
                                                          Acting

Enclosures: As stated




1
    For purposes of the evaluation, Recommendation #I93 is numbered and divided into 3 separate criteria.
Enclosure 1
State of Florida Letter




                          Encl (1)
                          p. 1 of 1
Enclosure 2
2005 Defense Base Closure and Realignment
Commission Report Recommendation #193




Source: 2005 Defense Base Closure and Realignment Commission Report, September 8, 2005
                                                                                         Encl (2)
                                                                                         p. 1 of 3
Encl (2)
p. 2 of 3
Encl (2)
p. 3 of 3
